FDIC Office of Inspector General Press Release: Leader Of Large-Scale Identity Theft Ring Sentenced To 12 Years In Prison For His Role In Fraud Enterprise
United States Department of Justice
United States Attorney's Office
District of New Jersey
FOR IMMEDIATE RELEASE
February 11, 2014
Leader Of Large-Scale Identity Theft Ring Sentenced To 12 Years In Prison For His Role In Fraud Enterprise
NEWARK, N.J. â The leader of a fraud ring that engaged in identity theft and financial crimes which have led to charges against 54 individuals was sentenced today to 144 months in prison for directing the large-scale, sophisticated criminal enterprise, U.S. Attorney Paul J. Fishman announced.
Sang-Hyun Park, a/k/a "Jimmy," 48, of Palisades Park, N.J., previously pleaded guilty before then-U.S. Magistrate Judge Patty Shwartz to a five-count information charging him with conspiracy to unlawfully produce identification documents and false identification documents (Count One); conspiracy to commit wire fraud affecting financial institutions and bank fraud (Count Two); aggravated identity theft (Count Three); money laundering (Count Four); and conspiracy to defraud the Internal Revenue Service (Count Five). U.S. District Court Judge Katharine S. Hayden imposed the sentence today in Newark federal court.
"Sang-Hyun Park presided over a criminal enterprise that was extraordinary in its scope and complexity," U.S. Attorney Fishman said. "The crimes for which he was sentenced today put us all at risk, not just because of the cost to our financial institutions, but also because of the threat posed by fake identification documents. Fortunately, the law enforcement agents and prosecutors who target identity theft and organized crime were just as patient and painstaking as the defendants who designed and executed this scheme, Mr. Park today joins dozens of his criminal conspirators in federal prison."
"Sang Hyun Park was the mastermind behind multiple, complex, fraudulent schemes that affected numerous financial institutions and individual victims," FBI-Newark Special Agent in Charge Aaron T. Ford said. "In doing so, he exploited the close ties of the community he lived in. The severity of the sentence imposed today speaks to the outstanding efforts of the FBI, IRS, DHS-HSI, and the United States Attorney's Office who uncovered, investigated and prosecuted Park and all of his co-conspirators who participated in these schemes."
According to documents filed in these cases and statements made in court:
Park was the leader of a criminal organization (the "Park Criminal Enterprise") headquartered in Bergen County, N.J., that obtained, brokered, and sold identity documents to customers for the purpose of committing credit card fraud, bank fraud and tax fraud. As part of the scheme, the Park Criminal Enterprise obtained Social Security cards beginning with the prefix "586." Social Security cards with that prefix were issued by the United States to individuals, usually from China, employed in American territories, such as American Samoa, Guam, and Saipan. The Park Criminal Enterprise sold the cards to its customers and then escorted the customers to various states to use them to obtain identification cards and driver's licenses.
The Park Criminal Enterprise then engaged in the fraudulent "build up" of credit scores associated with these fraudulently obtained identities. They did so by adding these identities as authorized users to the credit card accounts of various conspirators who received a fee for this service - members of the enterprise's credit build-up teams. By attaching the identities to these existing credit card accounts, the teams increased the credit scores associated with the identities to between 700 and 800. The members of the build-up teams knew neither the real person to whom the identity belonged nor virtually any of the customers who had purchased the identities.
After building the credit scores associated with these identities, Park and his conspirators assisted, coached and directed his customers to open bank accounts and obtain credit cards. Park and his conspirators then used these accounts and credit cards to commit fraud. Park relied on several collusive merchants who possessed credit card processing machines. For a fee, known as a "kkang fee," these collusive merchants charged the fraudulently obtained credit cards, although no transaction took place. After receiving the money into their merchant accounts from the credit card related to these fraudulent transactions, the collusive merchants gave the money to Park and his conspirators, minus their kkang fee.
Park admitted that he operated the criminal enterprise out of several offices in Bergen County, ran advertisements in local newspapers to attract customers interested in his illegal services, met with customers and other conspirators and otherwise directed the activities of the criminal enterprise. He also admitted that he obtained and sold 586-prefix Social Security cards to his customers and members of his criminal enterprise escorted more than 100 customers to various states so they could fraudulently obtain identification cards and driver's licenses using the Social Security cards and other fraudulent documents â such as counterfeit Chinese passports.
Park also admitted he conspired with and paid cash to various build-up teams to build the credit scores and establish credit histories for the fraudulent identities that he had sold to his customers. Park also laundered portions of the money he obtained through the fraud by wiring the money to various accounts in South Korea.
Park defrauded various credit card companies, banks, and lenders out of $4 million. He and his conspirators also claimed more than $182,000 in tax refunds from the IRS through the filing of false and fictitious tax returns and accompanying documents.
In addition to the prison term, Judge Hayden sentenced Park to five years of supervised release and ordered to pay restitution of $4,774, 116. He will also be deported upon his release from prison.
U.S. Attorney Fishman praised special agents of the FBI, under the direction of Special
Agent in Charge Aaron T. Ford in Newark; IRS Criminal Investigation, under the direction
of Special Agent in Charge Shantelle P. Kitchen; the Department of Homeland Security's
Immigration and Customs Enforcement, Homeland Security Investigations, under the direction of Acting Special Agent in Charge Andrew M. McLees; the Federal Deposit Insurance Corporation âOffice of Inspector General, under the direction of Acting Inspector General Fred W. Gibson Jr.; and the Bergen County Prosecutor's Office and the office's Chief of Detectives Steven Cucciniello for their work leading to today's sentence.
The government is represented by Assistant U.S. Attorneys Jane Yoon of the U.S. Attorney's Office Criminal Division and Anthony Moscato of the Office's Organized Crime/Gangs Unit in Newark.
14-047
Defense counsel: Christian P. Fleming Esq., East Brunswick, N.J.
# # #